No. 19-224
IN THE SUPREME COURT OF THE UNITED STATES
_________________
BRYAN JAMES STROTHER, PETITIONER
v.
DAVID S. BALDWIN, ADJUTANT GENERAL,
CALIFORNIA ARMY NATIONAL GUARD, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via email and first-class mail,
postage prepaid, this 20th day of November, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3,150
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
November 20, 2019.

November 20, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0224
STROTHER, BRYAN JAMES
DAVID S. BALDWIN, ADJUTANT GENERAL, CA.
ARMY NATIONAL GUARD, ET AL.
DANIEL C. WILLMAN
P.O. 606
PINCKNEY, MI 48169
248-231-0705
DANIELCWILLMAN@AOL.COM

